No.
In the
United States Supreme Court

SAE HAN SHEET CO., LTD.,
Petitioner,
v.
EASTMAN PERFORMANCE FILMS, LLC,
Respondent.

Certificate of Compliance
Michael S. Kimm, Esq., certifies that the foregoing petition complies with Rule
33.1(h) of the Supreme Court Rules as to a petition. This petition contains 7642 words,
as counted by the WordPerfect word processing program used to generate this
document exclusive of Tables.
I certify under 28 USC ยง 1746 that the foregoing is true and correct under
penalty of perjury.

Dated: May 12, 2021
Michael N. Kimm

